                           May 2, 1997


MEMORANDUM FOR THE SECRETARY

FROM:           John C. Layton
                Inspector General

SUBJECT:        INFORMATION: Report on "Audit of the Use of
                Intra-Departmental Requisitions"

BACKGROUND:

The Department of Energy's network of management and operating
contractors, as well as other prime contractors, procure over
$270 million in goods and services from each other on an annual
basis through intra-Departmental requisitions. The purpose of
the audit was to determine whether the use of intra-Departmental
requisitions was appropriate.

DISCUSSION:

The audit disclosed that the Department's prime contractors did
not always use intra-Departmental requisitions appropriately. Our
review showed that 40 of 104 intra-Departmental requisitions were
used to (1) acquire goods and services that were commercially
available; (2) obtain goods and services which were not part of
the performing contractor's mission; (3) procure the services of
subcontractors; and (4) augment staffing. As a result, the Depart-
ment cannot be certain that goods and services procured with these
requisitions were cost effective. For example, on two requisitions
the Department could have saved almost $850,000 out of $1.6 million
if the prime contractors had used normal procurement channels and
competed the acquisitions. In other instances, using intra-
Departmental requisitions resulted in multiple overhead rates being
added to the cost of the goods or services procured.

We recommended that the Department issue criteria to all field
sites and their respective contractors. We also recommended that
Operations Office managers implement policies and procedures
regarding the use of intra-Departmental requisitions and instruct
contractor procurement offices to be more involved in helping
requesting organizations determine the most appropriate and
economical method of acquiring goods and services. Department
management generally agreed with the recommendations in the report.

The Department can use this opportunity to establish performance
measures for contractors that ensure the proper use of the intra-
Departmental requisition process. These performance measures can
be included in the Business Management Oversight Program and
regularly reviewed to ensure the appropriate use of the
requisition process.

Attachment
cc:   Deputy Secretary
       Under Secretary



The Office of Inspector General wants to make the distribution of
its reports as customer friendly and cost effective as possible.
Therefore, this report will be available electronically through
the Internet five to seven days after publication at the
following alternative addresses:

             Department of Energy Headquarters Gopher
                         gopher.hr.doe.gov

          Department of Energy Headquarters Anonymous FTP
                        vm1.hqadmin.doe.gov

Department of Energy Human Resources and Administration Home Page
                      http://www.hr.doe.gov/ig

Your comments would be appreciated and can be provided on the
Customer Response form attached to the report.

               This report can be obtained from the
                     U.S. Department of Energy
          Office of Scientific and Technical Information
                            P.O. Box 62
                    Oak Ridge, Tennessee 37831




                    U.S. DEPARTMENT OF ENERGY
                    OFFICE OF INSPECTOR GENERAL




        AUDIT OF THE USE OF INTRA-DEPARTMENTAL REQUISITIONS




Report Number:   DOE/IG-0403   Western Regional Audit Office
Date of Issue:   May 1997      Albuquerque, New Mexico 87185
          AUDIT OF THE USE OF INTRA-DEPARTMENTAL REQUISITIONS




                              TABLE OF CONTENTS



                                                                     Page

SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PART I         - APPROACH AND OVERVIEW . . . . . . . . .    . . . . 2


                 Introduction . . . . . . . . . . . . . .    . . .    2

                 Scope and Methodology . . . . . . . . . . . . .      2

                 Background . . . . . . . . . . . . . . . . . . . 3

PART II        - FINDING AND RECOMMENDATIONS . . . . . . . .    .     5

                 Use ofIntra-Departmental Requisitions . . . . .      5

PART III - MANAGEMENT AND AUDITOR COMMENTS . . . . . . . . 14

PART IV - APPENDICES . . . . . . . . . . . . . . . . . .             17

          A.     Summary of Related Office of Inspector General
                 Audit Reports . . . . . . . . . . . . . . . .       17

          B.     Office of Procurement and Assistance Management
                 Comments. . . . . . . . . . . . . . . . . . .   19
                   U. S. DEPARTMENT OF ENERGY
                   OFFICE OF INSPECTOR GENERAL
                    OFFICE OF AUDIT SERVICES

       AUDIT OF THE USE OF INTRA-DEPARTMENTAL REQUISITIONS

Audit Report Number:   DOE/IG-0403

                              SUMMARY

   The Department of Energy's (Department) network of management
and operating contractors, as well as other prime contractors,
procure over $270 million in goods and services from each other
on a yearly basis by using intra-Departmental requisitions. The
objective of the audit was to determine whether intra-
Departmental requisitions were used appropriately. Specifically,
that they were not used to (1) obtain commercially available
goods and services; (2) acquire services outside the performing
contractor's mission; (3) procure the services of subcontractors;
and (4) augment staffing.

   The audit disclosed that the Department's prime contractors
did not use intra-Departmental requisitions appropriately for 40
of the 104 requisitions reviewed. As a result, the Department
did not always receive the most cost effective goods and
services. For example, on two requisitions the Department could
have saved almost $850,000 out of $1.6 million if the prime
contractors had used normal procurement channels and competed the
acquisitions. In other instances, using intra-Departmental
requisitions resulted in multiple overhead rates being added to
the cost of the goods or services procured.

   We recommended the Department issue criteria on the use of
intra-Departmental requisitions. We also recommended operations
Offices establish policies and procedures over the use of these
requisitions and provide a stronger emphasis on the appropriate
use ofintra-Departmental requisitions through contractor instruction
and yearly reviews. Department management generally concurred
with the finding and recommendations and agreed to initiate
action on the recommendations in the report. Management comments
are included in Part III of this report.




   ____________(signed)___________________

   OFFICE OF INSPECTOR GENERAL


                              PART I

                       APPROACH AND OVERVIEW

INTRODUCTION
     Each year, the Department's network of management and
operating contractors, as well as other prime contractors,
procure over $270 million in goods and services from one another
by using intra-Departmental requisitions. The objective of the
audit was to determine whether this use of intra-Departmental
requisitions was appropriate. Specifically, that they were not
used to (1) obtain commercially available goods and services; (2)
acquire services outside the performing contractor's mission; (3)
procure the services of subcontractors; and (4) augment staffing.

SCOPE AND METHODOLOGY

     The audit was conducted between September 1995 and September
1996 at Department Headquarters and at the Operations Offices in
Albuquerque, Idaho, Oakland, and Oak Ridge. In addition, audit
work was conducted at management and operating contractors at
Sandia National Laboratories in Albuquerque and Livermore
(Sandia); Lawrence Livermore National Laboratory in Livermore
(Lawrence Livermore); Lockheed Martin Energy Systems in Oak Ridge
(Energy Systems); and Lockheed Idaho Technologies Company
(Lockheed Idaho) in Idaho Falls.

     To accomplish the audit objectives, we:

     o   reviewed applicable laws, regulations, and policies;

     o   reviewed local guidance and procedures over intra-
         Departmental requisitions;

     o   obtained Departmental contracts to identify mission
         statements;

     o   reviewed prior audit reports;

     o   reviewed intra-Departmental requisitions; and,

     o   interviewed Department and contractor officials concerning
         the goods and services provided from the sampled requisitions.

     We judgmentally sampled and reviewed, based on the
description of services, 104 intra-Departmental requisitions
valued at approximately $46.1 million, from contractor provided
listings for Fiscal Years 1994, 1995, and 1996. Some of the
requisitions were initiated prior to the fiscal years reviewed
and as far back as 1988. Of the 104 requisitions sampled, we
questioned the appropriateness of 40 for one or more reasons.
Therefore, some duplication may exist for requisitions with
multiple discrepancies. Because the contractors' systems did not
readily identify or distinguish between the initial requisition
and related modifications, we were unable to determine the total
population of requisitions at the sites audited.

     Since the audit did not rely extensively on computer-
processed data, we did not fully examine the reliability of that
data. The audit was conducted according to generally accepted
Government auditing standards for performance audits, which
included tests of internal controls and compliance with laws and
regulations to the extent necessary to satisfy the audit
objectives. We assessed significant internal controls with
respect to the audit objectives. Because our review was limited,
it would not necessarily have disclosed all internal control
deficiencies that may have existed at the time of our audit.
Internal control weaknesses disclosed by the audit are discussed
in Part II. In our opinion, the finding in this report disclosed
material internal control weaknesses that the Department should
consider when preparing its year-end assurance memorandum.

     Department officials waived an exit conference.

BACKGROUND

     Department acquisition regulations require that contractors'
purchasing systems and methods ensure competitive subcontracting
for supplies and services essential for their missions. The
Department, however, recognizes that its contractors may
occasionally require specialized or unique goods, services, and
expertise available only from within its network of contractors.
In order to facilitate the acquisition of such goods and
services, the Department implemented an intra-Departmental
requisition process. In Fiscal Year 1995, the Department's
network of prime contractors procured over $270 million in goods
and services by using intra-Departmental requisitions. Prior to
Fiscal Year 1995, Department contractors could purchase goods and
services from each other by using Memorandum Purchase Orders or
Integrated Contractor Orders (purchase orders). In response to
deficiencies identified in an Office of Inspector General (OIG)
audit report, Audit of Controls Over Superconducting Super
Collider Subcontract Expenditures (DOE/IG-0336), the Department
implemented an Inter-Office Work Order (work order) process for
work exceeding $100,000. For purchases under $100,000,
contractors could continue to use purchase orders. In this
report, both acquisition methods (purchase orders and work
orders) are referred to as intra-Departmental requisitions. The
audit focused on the appropriate use of the intra-Departmental
requisition process, not the specific intra-Departmental method
used to procure the services. Additionally, we did not determine
whether the products or services were needed and therefore do not
comment in this audit report on the necessity of products or
services procured.

     The OIG has addressed the issue of intra-Departmental
requisition process as far back as 1988. In July 1988, an OIG
report on the "Audit of Selected Aspects of the Management of the
Engineering Prototype Group Rocky Flats Plant, Golden, Colorado"
(DOE/IG-0256), identified improper charges for items provided to
other Department contractors. Further, the production of these items
and the associated costs were expressly prohibited by the Department's
contract with the contractor operating the Rocky Flats Plant.
The "Audit of Lawrence Livermore National Laboratory Orders for
Memorabilia" (DOE/IG-0263) was a follow-up to the Rocky Flats
audit. The audit disclosed that certain Livermore program groups
had avoided conventional requisition procedures to procure
plaques, memorabilia and similar items from the Engineering
Prototype Group at Rocky Flats. Additionally, the documentation
was not sufficient to determine the basis for most of the
procurements or their cost. As a result of these audits and
certain parallel actions, the operating contractors for Livermore
and Rocky Flats agree to a $1.1 million settlement of related
issues. The current audit identified additional problems with
the intra-Departmental requisition process at Livermore in 1996.

                             PART II

                   FINDING AND RECOMMENDATIONS

             Use of Intra-Departmental Requisitions

FINDING

     In its most recent position on the use of intra-Departmental
requisitions to acquire goods and services from contractors, the
Department concluded that such actions would be appropriate only
if the goods, services, or expertise were unique to the
Department and, thus, not commercially available. In addition,
the Department required that the work requested be part of the
performing contractor's mission; otherwise, the contractors
should use existing procurement procedures (subcontracting) to
acquire the necessary goods, services, and expertise. As such,
the intra-Departmental requisition process should not be used to
support staffing requirements under normal operating conditions.
The Department's contractors, however, did not always use intra-
Departmental requisitions appropriately. Specifically, they did
not limit acquisitions to unique goods, services, or expertise or
assure those services were within the performing contractors
mission. Intra-Departmental requisitions were used to (1)
acquire goods and services that were commercially available; (2)
obtain goods and services which were not part of the performing
contractor's mission; (3) procure the services of subcontractors;
and (4) augment staff. This occurred because contractor
procurement officials have not adequately implemented policies
and procedures regarding the use of intra-Departmental
requisitions. Personnel at both the Department and contractor
level used the intra-Departmental requisition process because
they assumed that this process was more efficient and more cost
effective. In addition, the Department's position on the use of
intra-Departmental requisitions, based on a prior OIG audit
report, was not effectively publicized and circulated as specific
guidance to Department field offices/elements and their
respective contractors. As a result of not limiting the intra-
Departmental requisitions to acquiring unique goods, services,
and expertise, the Department cannot be certain that the goods
and services procured with these requisitions were at the least
cost to the Government. On two requisitions, for example, the
Department could have saved almost $850,000 out of approximately
$1.6 million if the contractors had used normal procurement
channels to compete the work. In other instances, using intra-
Departmental requisitions resulted in multiple overhead rates
being added to the cost of the goods or services.

RECOMMENDATIONS
     1. We recommend that the Director, Office of Contractor
        Management and Administration, issue the criteria
        established under the Departmental position for the
        Superconducting Super Collider audit as policy and
        distribute it to all Department sites.

     2. We recommend that the Managers, Albuquerque, Idaho,
        Oakland, and Oak Ridge Operations Offices:

           a)   develop policies and procedures that include, but are
                not limited to, the applicable Departmental position
                criteria addressing the appropriate use of intra-Depart-
                mental requisitions;

           b)   instruct contractor procurement officials to take a
                stronger role in helping requesters determine the
                most appropriate and economical method of acquiring
                goods and services; and,

           c)   include the intra-Departmental requisition method
                as part of the Business Management Oversight Program
                reviews.

MANAGEMENT REACTION

     The    Department and management of the Albuquerque, Idaho,
Oakland,    and Oak Ridge Operations Offices generally concurred
with the    finding and recommendations. Part III of this report
includes    detailed management and auditor comments.

                           DETAILS OF FINDING

    The Department of Energy Acquisition Regulation requires
that contractors' purchasing systems and methods ensure
competitive subcontracting for goods and services. The
Department, however, recognizes that a contractor may
occasionally require unique goods and services available only
from other contractors in the Department's network of management
and operating and integrated contractors. In order to facilitate
the acquisition of these unique goods, services, and expertise,
the Department implemented an intra-Departmental requisition
process. Using this requisition process, which is essentially a
form of sole-sourcing, contractors could eliminate many routine
procurement actions such as cost estimates, cost or price
analyses, rate verifications, and contract clauses inherent in
the normal procurement process. Thus, requisitions made to other
Departmental contractors could be completed in as little as two
days compared to up to 90 days for requisitions through normal
procurement channels.

     In order to protect against the inappropriate use of intra-
Departmental requisitions, the Department established a
management position indicating when these requisitions could be
used and gave ultimate responsibility for making that
determination to its contractors. This position, which resulted
from recommendations in a 1993 OIG audit report, Audit of
Controls Over Superconducting Super Collider Laboratory
Subcontractor Expenditures (DOE/IG-0336), calls for a senior
procurement official at the contractor level to approve intra-
Departmental requisitions for unique goods, services, or special
expertise acquired from another Department contractor. In
addition, in its formal Departmental position on the 1993 audit,
the Department concluded that approval should be given only if
the work was not available from the private or public sector and
only if the scope of work was consistent with the performing
contractor's mission. By not specifying the use of intra-
Departmental requisitions to procure goods and services from
subcontractors, the Department confirmed that these requisitions
were to be limited to Departmental contractors. Thus, if
contractors want to obtain goods, services, or expertise from
subcontractors, they should use normal procurement channels, not
intra-Departmental requisitions. Requisitions to supplement
normal staffing requirements, therefore, should also use the
normal procurement channels or process.

USE OF INTRA-DEPARTMENTAL REQUISITIONS

     The Department's contractors, however, did not always limit
their use of intra-Departmental requisitions to procure unique
goods, services, and expertise. Specifically, Department
contractors used these requisitions to (1) acquire goods and
services that were commercially available; (2) obtain goods and
services which were not part of the performing contractor's
mission; (3) procure the services of subcontractors; and (4)
augment staff.

Commercially Available Goods and Services

     Departmental contractors issued intra-Departmental
requisitions to other contractors for goods and services that
were commercially available. Of the 104 intra-Departmental
requisitions reviewed under the scope of this audit, 25
procurement actions valued at approximately $14.4 million were
for goods or services that were available in the commercial and
private sector and, thus, should have been obtained through the
competitive procurement process. For example:

     o Lockheed Idaho.   Lockheed Idaho issued an intra-
       Departmental requisition to Reynolds Electrical and Engineering
       Company, the prime contractor for the Nevada Test Site at that
       time, for bioassay analyses at a cost of $777,500. A Lockheed
       Idaho representative stated that at least two commercial firms
       capable of conducting these analyses had originally bid on the
       bioassay work. Although the subcontract was initially awarded to
       the lowest commercial bidder, this company could not perform the
       analyses to the contractor's satisfaction. Rather than issue a
       subcontract to one of the remaining bidders or re-issue the bid,
       the Idaho Operations Office directed the contractor to issue an
       intra-Departmental requisition to Reynolds Electrical and
       Engineering. In this case, the cost of performing the work
       within the Department's network of contractors ranged from $303
       to $567 per sample as compared to other bidders' sample costs of
       $250 to $283.
     o Sandia. Sandia also issued an $855,000 intra-Departmental
       requisition to Reynolds Electrical and Engineering Company for
       bioassay sample analyses. According to Sandia, it used the
       intra-Departmental requisition process as an interim step until
       it could establish a new commercial contract. However, this
       interim period began in April 1994 and was to run through
       October 1996. Sandia established a new contract with a
       commercial firm in August 1996. Under the new commercial
       contract, the average unit sample cost is $292; this amount
       was in contrast to the $1,644 cost per sample incurred under
       the intra-Departmental requisition. We were unable to
       determine why Reynolds' cost per sample varied so signifi-
       cantly between this example and the Lockheed Idaho example.

     o Energy Systems. Energy Systems also used a $225,360 intra-
       Departmental requisition to obtain services which were
       commercially available. For example, at least seven
       commercial entities in the Oak Ridge area were capable of
       performing the water sample analyses needed by Energy
       Systems. However, Energy Systems used an intra-Departmental
       requisition to sole-source the analytical work to Oak Ridge
       Associated Universities. According to procurement specialists
       in the environmental area and the technical representative
       overseeing the project, the work was commercially available
       and, in fact, several firms currently had or were performing
       similar subcontracts for Energy Systems.

Mission Related Requisitions

     Departmental contractors used intra-Departmental
requisitions to acquire services outside of the performing
contractors' missions. The Department position on a prior OIG
audit report stated that approval should be given only if the
scope of work was within the performing contractor's mission.
However, 9 of 104 requisitions reviewed during the audit, valued
at nearly $10.5 million, were used to acquire services outside of
the performing contractors' missions as defined in their
contracts with the Department.

     o Energy Systems. Energy Systems issued a requisition, valued
       at over $6.9 million, to Oak Ridge Associated Universities
       for the recruiting, hiring, and training of personnel in
       both technical and administrative areas. According to the
       statement of work, these individuals, which were integrated
       with Energy Systems' survey teams and administrative support
       staff, made up nearly one half of Energy Systems' total staff
       at their Grand Junction office. The contract between the
       Department and Oak Ridge Associated Universities, however,
       stipulated that its mission was to arrange for and conduct
       special research and studies in energy related areas and to
       provide training programs related to energy related fields.
       Thus, Oak Ridge Associated University's mission did not
       include providing staff to supplement the work force of other
       contractors nor did it include recruiting and hiring personnel
       in technical and administrative functions to supplement staffs
       of other management and operating contractors.
     o Lockheed Idaho. Lockheed Idaho issued three requisitions,
       totaling almost $1.6 million, to obtain services from a
       Department prime contractor in Butte, Montana -- Mountain
       States Energy. These services, however, were not part of
       Mountain States' mission which was to investigate and
       evaluate new technologies for treating mining wastes. The
       work obtained through the requisition, in contrast, included
       taking samples, logging sample data, and compiling the data
       into a report to support remedial investigation/feasibility
       studies. While these requisitioned services may have been
       needed to complete the remedial investigation/feasibility
       studies at the Idaho National Engineering Laboratory's waste
       sites, they were not within Mountain States' mission.
       Lockheed Idaho justified using the intra-Departmental
       requisition process rather than a competitive procurement
       because many Mountain States' employees were former
       Laboratory employees and, thus, were familiar with its
       operations. Familiarity with the Laboratory's operations,
       however, is not an adequate justification for using another
       Departmental contractor when commercial firms in the area are
       able to provide the needed service. Since these services were
       not in Mountain States' mission or unique to the Department, the
       requisitions should have been issued as competitive bids.

Requisitioning Services from Subcontractors

     Contractors also used intra-Departmental requisitions to
obtain services from subcontractors of other Departmental
contractors. In these instances, the intra-Departmental
requisitions actually functioned as pass-through procurements,
thereby avoiding the competitive procurement process. In this
pass-through procurement process, contractors who were
requisitioned to perform the work only handled the money transfer
and added their applicable indirect charges; thus, they did not
provide any significant value-added to the work. Of 104
requisitions reviewed, 9 valued in excess of $4.9 million were
issued as pass-through procurements.

     o Lawrence Livermore. Livermore issued two intra-Departmental
       requisitions totaling $982,740 that we classified as pass-
       through procurements. A review of invoices and direct labor
       charges supporting the requisitions found that the requested
       management and operating contractors provided no significant
       benefit to the requisition. One requisition valued at $128,134
       acquired the technical services of an individual subcontractor
       for Raytheon Corporation, a prime contractor at Nevada. This
       individual, a recently retired Livermore employee, became a
       "technical advisor" to Raytheon for use on an as-needed basis;
       however, 95 percent of the work performed during his time as a
       technical advisor was performed for Lawrence Livermore, not
       Raytheon. By using an intra-Departmental requisition rather
       than subcontracting directly, Lawrence Livermore incurred
       charges not only for the services of the technical advisor but
       also for Raytheon's indirect and general and administrative
       costs. In fact, even though this individual was considered
       a part-time casual employee at Raytheon and did not receive
       any fringe benefits, the charges to Lawrence Livermore included
       a 33 percent fringe rate. These and other added costs resulted
       in a 49 percent increase for the services provided.

       Livermore also issued another intra-Departmental
       requisition for $854,606 to Sandia to perform a records
       inventory. This requisition, too, was a pass-through
       procurement because Sandia subcontracted the majority of
       the work to a commercial firm. Since this firm had
       previously provided assistance to Sandia in performing
       its record inventory, Department Headquarters directed
       Sandia to modify its subcontract to include the inventory
       work at Lawrence Livermore. In this case, Sandia's role
       was limited to providing a previously developed database
       of document types and overseeing the subcontractor's
       inventory efforts. Out of about $847,000 in billings to
       Livermore for inventory services, for example, Sandia
       incurred only $939 in direct labor and overhead charges.
       The remaining charges included Sandia's applicable
       indirect charges which were added to the cost of services
       performed by the subcontractor.

     o Sandia. Sandia issued an intra-Departmental requisition to
       Energy Systems for $102,000 to decontaminate and decommission
       contaminated rooms in three Sandia facilities. However,
       Energy Systems did not perform the work itself; instead,
       it issued a subcontract to IT Corporation. The deliverable,
       which was a draft final report outlining an action plan, had
       the phrase "Prepared by IT Corporation / Nuclear Services"
       inscribed on the cover. In addition, one invoice -- from
       Energy Systems to Sandia -- for approximately $45,000 showed
       that over $42,000 of the invoice was for subcontract work
       performed by IT. Instead of using an intra-Departmental
       requisition, Sandia could have subcontracted directly with
       IT Corporation and, thus, would have eliminated Energy Systems'
       indirect costs.

     Pass-through procurements, however, were not limited to
subcontractors. In at least one instance, Sandia passed work
received from one prime contractor to another prime contractor.
In this case, Westinghouse Hanford issued an intra-Departmental
requisition to Sandia for the construction of a command trailer.
Instead of performing all of the work itself, however, Sandia
issued an intra-Departmental requisition for almost $322,700 to
Allied Signal because it had more experience in trailer
construction. Thus, Sandia did not provide a significant amount
of effort to accomplish the scope of work; i.e., to construct a
command trailer. Consequently, this may not have been the most
economical method of procuring the trailer.

Augmentation of Staff

     In other instances, contractors used intra-Departmental
requisitions to augment staff levels. Of the requisitions
reviewed, six valued at approximately $1.9 million were used to
augment contractor staffs.
     o Energy Systems. Energy Systems used an intra-Departmental
       requisition for $1.43 million to augment the staff of the
       Y-12 Plant at Oak Ridge. For the past eight years, Energy
       Systems used these requisitions to obtain the services of
       three environmental monitoring technicians. Although these
       employees purportedly worked for Oak Ridge Associated Univer-
       sities, the technical representative from Energy Systems has
       approved all leave requests, completed performance ratings,
       and verified and approved timecards for these technicians for
       at least three years. During this time period, therefore,
       these technicians appeared to be Energy Systems employees.

     o Lawrence Livermore. Lawrence Livermore had issued two
       consecutive requisitions for a total of almost $87,000 to a
       specific Energy Systems employee to perform environmental risk
       assessments. This individual, previously assigned to Energy
       Systems' Grand Junction office, relocated to the Livermore area
       and established residence. A discussion with this individual
       affirmed the employee's intention of continuing to work at
       Livermore indefinitely. Energy Systems' own actions also
       confirmed these employment plans. Energy Systems provided this
       employee with a cost of living allowance rather than paying the
       normal travel costs for temporary assignments such as intra-
       Departmental requisitions.

     While these two examples show that intra-Departmental
requisitions were used to augment staffs, other requisitions
resulted in the individuals eventually obtaining full-time
employment with the requesting contractor. For example, one
individual was on an intra-Departmental requisition to Lawrence
Livermore for seven years before continuing in that same position
as a full-time Lawrence Livermore employee. While we do not
criticize the eventual hiring of these individuals, or any of the
individuals discussed in this section, we do question the use of
the intra-Departmental requisitions process to acquire their
services for extended periods.

MANAGEMENT CONTROLS

     The audit showed that, similar to other audit findings by
the OIG, weaknesses occurred in issuing intra-Departmental
requisitions because contractor procurement officials have not
adequately established or implemented policies or procedures.
These recent OIG audits (see appendix) showed that contractors'
procurement systems lacked adequate controls over justifying sole-
source procurements. Recent audit reports at the Idaho National
Engineering Laboratory and Los Alamos National Laboratory, for
example, criticized the adequacy of justifications when
contractors issued sole-source subcontracts for consulting
agreements. These reports recommended that internal controls be
established to reject subcontracts if they are not adequately
justified. Our audit found a similar problem; that is,
contractors have not established adequate policies and procedures
over issuing intra-Departmental requisitions. Out of the four
contractor sites visited, for instance, only Lawrence Livermore
had established a comprehensive policy for acquiring goods or
services from another contractor. Further, based on the audit
results, even Livermore still needed to establish internal
controls to ensure the policy was followed.

     In addition, as requests for intra-Departmental requisitions
were received from the contractor's technical representatives,
contractor procurement officials were reluctant to scrutinize the
requests and require the requester to issue a subcontract rather
than an intra-Departmental requisition. Several procurement
officials stated that they were in a customer service role with
their main goal to meet their requesters' needs. As such,
procurement officials rarely criticized or questioned a
customer's request for an intra-Departmental requisition when it
was accompanied by a sole-source justification form.

     Further, contractor personnel routinely used the intra-
Departmental requisition process because they believed that the
process was more efficient and that the services acquired from
other prime contractors were more cost effective. Personnel also
pointed out that procuring goods or services using an intra-
Departmental requisition took a matter of days rather than the
months needed to issue a contract. One individual estimated it
could take as long as six months to get a new subcontract issued.
According to one procurement official, as a result of
streamlining efforts, the average time to issue a subcontract was
reduced to approximately five weeks at one site. Even if the
intra-Departmental requisition process was more convenient, its
use does not justify bypassing the controls inherent in the
competitive procurement process. A review of 25 requisitions
disclosed that no comparisons had been conducted that
demonstrated procuring goods and services from prime contractors
was more cost effective than obtaining goods and services from
the commercial or private sector.

     Also, intra-Departmental requisitions continue to be used
inappropriately because the Departmental position for the
Superconducting Super Collider audit (DOE/IG-0336), which defined
the use of intra-Departmental work orders, was not adequately
publicized or circulated for implementation. For example, the
1993 audit report recommended that the Department establish
appropriate policy and procedures for procurement actions between
the Department's laboratories. Rather than establish or publish
specific guidance, however, Department management issued a
position paper stating that senior procurement officials at the
contractor level would determine whether the scope of work
justified using intra-Departmental requisitions. If these
officials determined that the requisition was not procuring
unique goods, services, or special expertise, they were to
utilize normal procurement channels. This position, however, was
never officially implemented as Department guidance or policy.
For example, procurement officials were neither told what kind of
goods, services, or expertise would constitute "unique," nor were
they provided with specific limitations for using intra-
Departmental requisitions. Furthermore, the Department did not
disseminate this general position either to contractor
procurement officials or to cognizant field offices/elements for
implementation. During the course of this review, none of the
contractor procurement personnel we visited, and only a few of
the operations office personnel, were familiar with the
Departmental position. None recalled receiving any guidance on
the use of intra-Departmental requisitions.

     Finally, the Department established the Business Management
Oversight Program process in March 1995 to reduce the number of
reviews being conducted by the Department over its contractors'
operations. The process now calls for an annual two week
multidisciplinary review or a "for cause" review based on
weaknesses identified during self-assessments or by other outside
reviews. Since this process was established after the
Departmental position on the Superconducting Super Collider, not
all Department sites included the intra-Departmental requisition
process as part of the Business Management Oversight Program
review process. The Department could establish an effective
control for ensuring appropriate use of intra-Departmental
requisitions by including these requisitions as part of this new
review process. Given the scope of the finding in this report,
we concluded a material internal control weakness existed and
that "for cause" reviews into the widespread use of intra-
Departmental requisitions should be initiated.

PROGRAM SAVINGS

    As a result of inappropriately using the intra-Departmental
requisition process, the Department did not always receive the
most cost effective goods or services possible. If prime
contractors had competed the two intra-Departmental requisitions
for bioassay analysis, for example, we estimated that almost
$850,000 of the approximate $1.6 million cost could have been
saved. In addition, the pass-through procurements discussed in
this report resulted in the contractors unnecessarily incurring
additional overhead costs. In fact, individuals at three
different sites commented on what they described as the "taxation
effect" inherent in issuing intra-Departmental requisitions. One
individual pointed out that intra-Departmental requisitions
resulted in the Department's spending from $3 to $6 to receive $1
of effort. Consequently, if the Department restricted the intra-
Departmental requisition process to acquiring only those goods,
services, and expertise that are unique to Department
contractors, it would have more direct funding available to carry
out its programs.


                             PART III

                  MANAGEMENT AND AUDITOR COMMENTS

     Department management generally concurred with our report.
Responses were received from the Department's Deputy Assistant
Secretary for Procurement and Assistance Management and the
Albuquerque, Idaho, Oakland, and Oak Ridge Operations Offices. A
summary of management comments and our responses follows. The
Deputy Assistant Secretary for Procurement and Assistance
Management's comments are included in their entirety as Appendix
B.
     Recommendation 1. Issue the criteria established under the
Departmental position for the Superconducting Super Collider
audit as policy and distribute it to all Department sites.

     Management Comments. The Deputy Assistant Secretary
concurred and stated that additional guidance should be developed
in this area to ensure the appropriate use of these instruments,
as well as the economy and effectiveness of the purchase. The
Department plans to issue an instrument (either regulation or
acquisition letter) describing the proper use of intra-Departmental
requisitions and establishing controls over their use.

     Auditor Comments. Management's comments and actions taken
are generally responsive to the recommendation.

         Recommendation 2a. To the Managers, Albuquerque, Idaho,
Oakland, and Oak Ridge Operations Offices: Develop policies and
procedures that include, but are not limited to, the applicable
Departmental position criteria addressing the appropriate use of
intra-Departmental requisitions.

    Management Comments. Management concurred with the
recommendation and provided the following responses.

    Albuquerque Operations Office. Albuquerque will develop
policies and procedures that include applicable Departmental
position criteria addressing the appropriate use of intra-
Departmental requisitions. Furthermore, Albuquerque will review
all management and operating contractor purchasing policies and
procedures to ensure that they are compatible with the
Departmental position criteria.

    Idaho Operations Office. Idaho intends to coordinate with
Department Headquarters on the policies and procedures that
should be followed. Lockheed Idaho will be tasked to develop and
implement local policies and procedures to ensure that
appropriate and adequate competition is considered. The new
policies and procedures will be in place by June 1997.

    Oakland Operations Office. Upon receipt of the Department
Headquarters criteria, Oakland will write Lawrence Livermore and
request that policies and procedures be revisited and changed to
reflect the latest criteria. Livermore will be required to
submit changes for contracting officer's approval. These
procedures will likely be "tri-lab" procedures (Livermore,
Lawrence Berkeley, and Los Alamos National Laboratories)
coordinated through the University of California.

    Oak Ridge Operations Office. Management agreed to establish
local policies and procedures once Department Headquarters policy
was received.

    Auditor Comments. Management's comments and actions planned
are responsive to the recommendation.

    Recommendation 2b. To the Managers, Albuquerque, Idaho,
Oakland, and Oak Ridge Operations Offices: Instruct contractor
procurement officials to take a stronger role in helping
requesters determine the most appropriate and economical method
of acquiring goods and services.

    Management Comments. Management concurred with the
recommendation and provided the following responses.

        Albuquerque Operations Office. Albuquerque will
instruct contractor procurement officials to take a stronger role
in helping requesters determine the most appropriate and
economical method of acquiring goods and services.

    Idaho Operations Office. This recommendation will be
implemented in accordance with the terms and conditions of the
contract. The policies and procedures developed by Lockheed
Idaho will also address the role of procurement officials in
helping requesters determine the most appropriate and economical
method of acquiring goods and services. A review will be
conducted by June 1997 to ensure Idaho Operations Office and
Lockheed Idaho procurement and program representatives understand
the new policies and procedures.

    Oakland Operations Office. Upon receipt of the Department
Headquarters criteria, Oakland will provide guidance for Lawrence
Livermore procurement to help define the most economical method
to procure goods and services considering uniqueness, cost, time,
and other considerations.

    Oak Ridge Operations Office. When policy is received from
Department Headquarters, the contractor will be requested to
develop and implement appropriate procedures.

    Auditor Comments.   Management's comments are responsive to
the recommendation.

    Recommendation 2c. To the Managers, Albuquerque, Idaho,
Oakland, and Oak Ridge Operations Offices: Include the intra-
Departmental requisition method as part of the Business
Management Oversight Program reviews.

    Management Comments. Management concurred with the
recommendation and provided the following responses.

    Albuquerque Operations Office. Albuquerque will provide
this report to its management and operating contractors so that
the issues will be addressed and assessed in contractors'
business system self-assessment reports. The contractors self-
assessments of intra-Departmental requisitions will be reviewed
during the annual Business Management Oversight Program reviews.

    Idaho Operations Office. The Business Management Oversight
Program review will become the primary means to ensure the new
policies and procedures are being adhered to. The review
referred to in management comments to recommendation 2b will
baseline these type of transactions. Thereafter, the Business
Management Oversight Program will be used to review these
acquisitions.
    Oakland Operations Office. Upon receipt of the Department
Headquarters criteria, Oakland will consider whether intra-
Departmental requisitions should be part of the Business
Management Oversight Program review. However, the two individual
methods of procurement are different and should be addressed
separately (Interoffice versus Intraoffice).

    Oak Ridge Operations Office. Management stated that it
would be beneficial to include the intra-Departmental requisition
method as part of the Business Management Oversight Program
review process.

     Auditor Comments. Management's comments and actions planned
are generally responsive to the recommendation. The new policy
to be issued by Headquarters will establish an internal control
and review process that operations offices will have to follow.


                                                       APPENDIX A
                             PART IV

                            APPENDIX

    Summary of Related Office of Inspector General Audit Reports

     Listed below are prior OIG audit reports on internal control
weaknesses with the contractors' procurement systems which are
consistent with the results of this audit.

     DOE/IG-0336, Audit of Controls Over Superconducting Super
Collider Laboratory Subcontractor Expenditures, October 1993

     The audit reported that inadequate justifications,
accountability, and cost controls existed for $143 million in
expenditures made and $47 million planned with other Department
laboratory contractors. The OIG recommended establishing
Departmental guidance for procurement actions between the
laboratories.

     WR-B-95-07, Consultant Subcontracting at the Idaho National
Engineering Laboratory, June 1995

     The audit reported that management and operating contractors
generally did not award consultant subcontracts competitively and
objectively. These problems occurred because the management and
operating contractors' internal controls did not ensure sole-
source procurements were adequately justified and potential
conflicts of interest were avoided.

     WR-B-96-05, Audit of Consultant Agreements at Los Alamos
National Laboratory, February 1996

     The audit showed that Los Alamos may not have acquired
consultant agreements at the lowest cost because it did not
prepare adequate sole-source justifications for 17 sole-source
consultant agreements valued at $842,900. The OIG recommended
the Department ensure proper sole-source justifications and
enhance internal controls over consultant agreements.

     DOE/IG-0351, Audit of Costs and Management of the Yucca
Mountain Project, June 1994

     The audit found that, if procurement and fund allocation
practices were streamlined, significant savings in overhead costs
could be achieved over the remaining life of the project. The
audit concluded that a greater degree of Federal control of the
project and a stronger role for the Project Office was needed.

     DOE/IG-0256, Audit of Selected Aspects of the Management of
the Engineering Prototype Group Rocky Flats Plant, Golden,
Colorado, July 1988

     The audit identified improper charges for items provided to
other Department contractors. The production of these items and
the associated costs were expressly prohibited by the
Department's contract with the contractor operating the Rocky
Flats Plant.

     DOE/IG-0263, Audit of Lawrence Livermore National Laboratory
Orders for Memorabilia, December 1988

     The audit disclosed that certain Livermore program groups
had avoided conventional requisition procedures to procure
plaques, memorabilia and similar items from the Engineering
Prototype Group at Rocky Flats. Additionally, the documentation
was not sufficient to determine the basis for most of the
procurements or their cost. As a result of these audits and
certain parallel actions, the operating contractors for Livermore
and Rocky Flats agreed to a $1.1 million settlement of related
issues.

                                                       APPENDIX B
                         April 15, 1997

MEMORANDUM FOR:     GREGORY FRIEDMAN
                    OFFICE OF INSPECTOR GENERAL

FROM:               RICHARD H. HOPF
                    DEPUTY ASSISTANT SECRETARY FOR
                    PROCUREMENT AND ASSISTANCE MANAGEMENT

SUBJECT:            RESPONSE TO OFFICE OF INSPECTOR GENERAL
                    "AUDIT OF THE USE OF INTRA-DEPARTMENTAL
                    REQUISITIONS"

In response to your recommendations contained in the subject
audit report, we have reviewed the process involving the use of
Intra-Departmental Requisitions (IDRs) for the acquisition of
property and services among the Department's major facilities
management contractors. The review was conducted in conjunction
with the Office of Financial Policy. We concur that additional
guidance should be developed in this area to ensure the
appropriate use of the IDR instrument, as well as the economy and
effectiveness of the purchase.

We propose to issue guidance which will:

     o   Define IDRs as a procurement action when used for the
         transfer of goods and services between contractors.

     o   Establish the standards or criteria for use of IDRs for
         purposes of acquiring goods and services from a contractor.
         Define the circumstances under which IDRs may be used as
         well as define the type of goods and services that would be
         appropriate.

     o   Establish internal control processes necessary to ensure
         conformance with the standards or criteria.

     o   Define the steps to be taken when standards or criteria
         relating to IDR use are not met.

If the described approach is acceptable, an appropriate
instructional instrument (e.g. regulation, acquisition letter)
will be drafted and coordinated with your office, the Chief
Financial Officer and the field office elements. Our Office of
Policy will lead in the development and coordination of the
acquisition letter. If you would like to discuss this matter
further, please call me at 586-8613 or Stephen J. Michelsen at
586-9956.

cc:
Helen Sherman, CR-20
Gwen Cowan, HR-51


Report No_______________:    DOE/IG-0403


                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in
improving the usefulness of its products. We wish to make our
reports as responsive as possible to our customers' requirements,
and therefore ask that you consider sharing your thoughts with
us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection,
scheduling, scope, or procedures of the audit or inspection would
have been helpful to the reader in understanding this report?

2. What additional information related to findings and
recommendations could have been included in this report to assist
management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have
made this report's overall message more clear to the reader?
4. What additional actions could the Office of Inspector General
have taken on the issues discussed in this report which would
have been helpful?

Please include your name and telephone number so that we may
contact you should we have any questions about your comments.

Name ____________________________ Date_______________________

Telephone ________________________ Organization_________________

When you have completed this form, you may telefax it to the
Office of Inspector General at (202) 586-0948, or you may mail it
to:

     Office of Inspector General (IG-1)
     U.S. Department of Energy
            Washington, D.C. 20585
     ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff
member of the Office of Inspector General, please contact Wilma
Slaughter at (202) 586-1924.
